2311 Douglas Street

Q@OCKLE

Legal Briefs

Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-793
INSTITUTE FOR FREE SPEECH,
Petitioner,

v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA,

Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE CATO INSTITUTE AS AMICUS CURIAE IN
SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail.

Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

Ilya Shapiro

Counsel of Record
Trevor Burrus
James T. Knight IT
CATO INSTITUTE
1000 Mass. Ave., NW.
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org

Subscribed and sworn to before me this 21st day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

coats EC Clit Odie h, Bole

My Commission Expires Nov 24, 2020

 

Notary Public

 

39281
 

 

Attorneys for Petitioner

Allen Joseph Dickerson Institute for Free Speech
Counsel of Record 124 S. West Street
Suite 201

Alexandria, VA 22314

adickerson@ifs.org

Party name: Institute for Free Speech

 

Attorneys for Respondent

Aimee Athena Feinberg California Department of Justice

Counsel of Record 1300 | Street
Sacramento, CA 95814

Aimee.Feinberg@doj.ca.gov

Party name: Xavier Becerra, Attorney General of California

 

 
